 

IN THE
Supreme Court of the Anited States

PENNEAST PIPELINE COMPANY, LLC,

Petitioner,
v.

STATE OF NEW JERSEY; NEW JERSEY DEPARTMENT OF
ENVIRONMENTAL PROTECTION; NEW JERSEY STATE
AGRICULTURE DEVELOPMENT COMMITTEE; DELAWARE
& RARITAN CANAL COMMISSION; NEW JERSEY WATER
SUPPLY AUTHORITY; NEW JERSEY DEPARTMENT OF
TRANSPORTATION; NEW JERSEY DEPARTMENT OF THE
TREASURY; NEW JERSEY MOTOR VEHICLE COMMISSION,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,917 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 18, 2020.

 

Wilson-Epes Printing Co., Inc.
